No.
TRENT MICHAEL TAYLOR,
Petitioner,

v.
ROBERT RIOJAS, Sergeant of Corrections Officer,
Individually and in Their Official Capacity; RICARDO
CORTEZ, Sergeant of Corrections Officer, Individually
and in Their Official Capacity; STEPHEN HUNTER,
Correctional Officer, Individually and in Their
Official Capacity; LARRY DAVIDSON, Correctional
Officer, Individually and in Their Official Capacity;
SHANE SWANEY, Sergeant of Corrections Officer,
Individually and in Their Official Capacity; JOE
MARTINEZ,
Respondents.
CERTIFICATE OF SERVICE

Pursuant to Supreme Court Rule 29.5(a), I certify
a digital copy of the Petition for a Writ of Certiorari
was sent to counsel for the Respondents by electronic
mail on April 24, 2020. The parties have consented to
electronic service.
Kyle D. Hawkins
Solicitor General of Texas
P.O. Box 12548
Capitol Station
Austin, TX 78711-2548
(512) 936-1700
kyle.hawkins@oag.texas.gov
/s/ Kelsi Brown Corkran
Counsel of Record

